CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
VISA PLATINUM
Approved Credit Limit:
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Introductory APR
APR for
for aa period
period of
of 12
12 billing
billing cycles.
cycles.
Introductory
Purchases
After that, your APR will be between
After that, Your APR will be
.

6.90%

APR for Balance Transfers
APR for Cash Advances

Paying Interest

For Credit Card Tips from the
Consumer Financial Protection Bureau

9.59% and 17.90%

Introductory
APR for
a period
of 12 of
billing
cycles.
Introductory
APR
for a period
12 billing
cycles.
6.90%
your APR will be between 9.59%
and 17.90%
After that, Your
.
Introductory
APR for
a period
of 12 of
billing
cycles.
Introductory
APR
for a period
12 billing
cycles.
6.90%
After that, Your
APR will
will be between 9.59%
.
your APR
and 17.90%

Your due date is at least 21 days after the close of each billing cycle. We will
not charge You any interest on purchases or balance transfers if You pay
Your entire balance by the due date each month. We will begin charging
interest on cash advances on the transaction date.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee

1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more details.
Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to Your Account
during the first 12 months following the opening of Your Account. Any existing balances on Members First Credit Union loan
or credit card accounts are not eligible for the Introductory APR for balance transfers.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the

SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02100283-MXC20-P-1-060217 (MXC201-E)

credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 5 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not make
the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned Payment
Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Card Replacement Fee:
$5.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is issued
to You for any reason.
Document Copy Fee:
$5.00 per document. If Your Account is subject to a Document Copy Fee, except as limited by applicable law, a fee may be
charged to Your Account for each copy of a sales draft or statement that You request (except when the request is made in
connection with a billing error made by the Credit Union).
Collection Costs:
For Alabama Borrowers: After default and upon referral to an attorney, who is not an employee of the Credit Union, You
agree to pay all costs of collecting the amount You owe under this Agreement, including, if the unpaid balance under this
plan is greater than $300.00 at the time of collection, reasonable attorney's fees.
For Kentucky Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement, including
reasonable attorney's fees to the extent permitted by state law.
For Maine Borrowers: For loans with an interest rate less than or equal to 12¼%:
Attorney's fees—If the Credit Union hires an attorney to collect the amount You owe under this Agreement, You agree to
pay reasonable attorney's fees not to exceed 15.00% of the unpaid debt.
For loans with an interest rate over 12¼%: no attorney's fees.
For Michigan Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement to the
extent permitted by state law.
For North Dakota Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement to the
extent permitted by state law.
For Nebraska Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement to the
extent permitted by state law.
For New Hampshire Borrowers: You agree to pay all costs of collecting what You owe under this Agreement and
reasonable attorney's fees. If You win in any action, suit or proceeding brought by the Credit Union or in any action You
bring against the Credit Union, You will be awarded reasonable attorney's fees. If You successfully assert a partial defense
or set-off, recoupment or counterclaim, the court may withhold from the Credit Union the entire amount or such portion of
the attorney's fees as the court considers equitable.
For New Jersey Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
reasonable attorney's fees not exceeding 20.00% of the principal and interest due and all court costs.
For Ohio Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement to the extent
permitted by state law.
For Arkansas Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
attorney's fees not to exceed 10.00% of the amount of principal plus interest and all court costs.
For Oklahoma Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement. These
costs include reasonable attorney's fees not in excess of 15.00% of the unpaid debt after default and referral to an attorney,
not a salaried employee of the Credit Union, unless You borrowed $1,000.00 or less at an interest rate greater than 10.00%
per year.
For Oregon Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including court
costs, reasonable attorney's fees and the costs of any appeal by the Credit Union.
For South Carolina Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement.
These costs will include reasonable attorney's fees not in excess of 15.00% of the unpaid debt after default unless You
borrowed $1,000.00 or less at an interest rate greater than 18.00% per year.
For South Dakota Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement to the
extent permitted by state law.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02100283-MXC20-P-1-060217 (MXC201-E)

For Wyoming Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement. These
costs will include reasonable attorney's fees unless You borrowed $1,000.00 or less at an interest rate greater than 10.00%
per year.
For Colorado Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
court costs and reasonable attorney's fees paid to an individual who is not an employee of the Credit Union. The attorney's
fees You pay will not exceed 15.00% of the unpaid debt after default.
For Connecticut Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
reasonable attorney's fees not in excess of 15.00% of any judgment and all court costs.
For Washington D.C. Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement,
including reasonable attorney's fees not in excess of 15.00% of the unpaid debt and all court costs.
For Georgia Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
reasonable attorney's fees not in excess of 15.00% of the unpaid debt and all court costs.
For Idaho Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including court
costs and, if the amount You borrowed was greater than $1,000.00, reasonable attorney's fees.
For Illinois Borrowers: You promise to pay, subject to applicable law, all costs of collecting what You owe under this
Agreement and all costs of realizing on any security for the Plan including court costs, collection agency fees and reasonable
attorney’s fees. We may enter into a contingent or hourly fee arrangement with an attorney or collection agency and You
agree that such an Agreement is reasonable. This provision also applies to bankruptcy, appeals or post- judgment
proceedings.
For Kansas Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including court
costs and reasonable attorney's fees paid to an individual who is not an employee of the Credit Union. The attorney's fees
You pay will not exceed 15.00% of the unpaid debt after default.
For All Other Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
court costs and reasonable attorney's fees.
Periodic Rates:
which is a daily periodic rate of
.
The Introductory Purchase APR is 6.90%, which is a daily periodic rate of 0.0189%
The Purchase APR is between 9.59% and 17.90%, which is a daily periodic rate of between 0.0189% and 0.4904%
The Introductory Balance Transfer APR is 6.90%, which is a daily periodic rate of 0.0189%
The Balance Transfer APR is between 9.59% and 17.90%, which is a daily periodic rate of between 0.0189% and 0.4904%
The Introductory Cash Advance APR is 6.90%, which is a daily periodic rate of 0.0189%
The Cash Advance APR is between 9.59% and 17.90%, which is a daily periodic rate of between 0.0189% and 0.4904%

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02100283-MXC20-P-1-060217 (MXC201-E)

